CAPITAL CASE
No. 19A735
lNTHE

&upreme Qeourt of tbe mntteb &tate~
LEROY D. CROPPER,

V.

Applicant,

STATE OF ARIZONA,

Respondent.
SECOND APPLICATION DIRECTED To THE HONORABLE ELENA KAGAN
FOR AN EXTENSION OF TIME WITHIN WHICH To FILE
A PETITION FOR A WRIT OF CERTIORARI To THE
SUPERIOR COURT OF ARIZONA, MARICOPA COUNTY

CERTIFICATE OF SERVICE

I, Michael J. Meehan, a member of the Bar of this Court and counsel of record
for Applicant, hereby certify that on February 4, 2020, I caused copies of this Second
Application Directed to the Honorable Elena Kagan for an Extension of Time Within
Which to File a Petition for a Writ of Certiorari to the Superior Court of Arizona,
Maricopa County in the above-captioned case to be mailed, first-class postage
prepaid, to:

Laura P. Chiasson
Assistant Attorney General
Capital Litigation Section
400 West Congress Street, S-315
Tucson, AZ 85701
(520) 628-6520
Laura.Chiasson@azag.gov
cadocket@azag.gov

·Counsel for Respondent
Additionally, in accordance with Supreme Court Rule 29.3, an electronic
version of the Second Application Directed to the Honorable Elena Kagan for an
Extension of Time Within Which to File a Petition for a Writ of Certiorari to the
Superior Court of Arizona, Maricopa County was transmitted to the above-listed
counsel at the referenced email addresses.
I further certify that all parties required to be served have been served.

By V / 1 1 . f ~
Michaef J. Meehan
Counsel for Applicant

2

